Case: 19-13879

Date Filed: 03/30/2020

Page: 1 of 1

<4

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13879-A
EDDIE MATTHEW AMOS,
Petitioner-Appellant,
versus
TOMMY BOWEN,
Respondent-Appellee.

Appeal from the United States District Court
for the Northern District of Georgia

ORDER:

\1

To merit a certificate of appealability, appellant must show that reasonable jurists would
find debatable both (1) the merits of an underlying claim, and (2) the procedural issues that he
seeks to raise. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U;S. 473, 478 (20,00).
Appellant’s motion for a certificate of appealability is DENIED because he failed to make the
requisite showing. Appellant’s motion for leave to proceed on appeal in forma pauperis is
DENIED AS MOOT. Appellant’s motion for appointment of counsel is DENIED AS MOOT.

i urrU judge

AA

£

Filed 08/30/19 Page 1 of 6

Case l:18-cv-04334-ODE Document 14

l Mmmmmm

. j|

§y'”:

'

.

• -j'Ar.^y"

TN THE UNITED STATES DISTRICT COIRT «U6 3 0 2019
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
!

EDWARD MATTHEW AMOS,
Petitioner,

CIVIL ACTION NO.
1:18-CV-4334-ODE

I

v.
I

TOMMY BOWEN,
Respondent.
ORDER
Judge’s Report and
Presently before the Court is the Magistrate
Recommendation (R&R) recommending
brought pursuant to ?8 H S-O- § 2251 b

that the instant habeas corpus petition

e denied and the case dismissed. [Poc.iH]-

Petitioner has filed his objections in response to the R&R. [Doc. 1,2].
A district judge has broad discretion to accept, reject, or modify a magistrate .
judge’s proposed findings and recommendations
fiCT 6S0 (19801. Pursuant to 7.jt U,SXL
the Report and Recommen

T Tnite.d States v. Raddatz, 447 IJ.fL.

§ 636fh¥l\ the Court reviews.any portion of

dation that is the subject of a proper objection on a de novo

basis and any non-objected portion under

a “clearly erroneous” standard. “Parties

d recommendation must specifically
filing objections to a magistrate’s report an
objected to' Frivolous, conclusive or general objections need
identify those findings
” Marsden\LMoore, 847 F,2d
not be considered by the district court.
(llthCir. 1988).
A0 72A
(Rev.8/82)

APP£/fi>/X

3
i-

1

Gase 1;18-cv-04334-6dE DocuitieHt 14 Filed 08/30/19 Page 3 of 6

*

With respect to his first claim that he should have been sentenced for voluntary

!
■

manslaughter, the Magistrate Judge concluded that the claim raises an issue of state

i

law, and, as a result, Petitioner fails to state a claim under § 2254 which provides
relief only for constitutional violations.

,.ir- ..

In response to his claim of insufficiency of the evidence, the Magistrate Judge
noted that in Petitioner’s appeal, the Georgia Supreme Court determined that the
evidence was sufficient. After finding that the state court’s conclusion was properly

I
i
i

*

based on the United States Supreme Court’s opinion in Jackson v. Virginia, 443 UJL

i
i

in the record, the
307. 319 (1979), and was a reasonable determination of the facts
Magistrate Judge concluded that this Court must defer to the state court under
§'2254(d).
In determining that Petitioner is n ot entitled to relief with respect to his claims
of ineffective assistance, the Magistrate judge noted that Petitioner raised these claims
in his state habeas corpiis petition. The Magistrate Judge found that the state court
applied the correct standard as described by the United States Supreme Court in
StricklandvJWasMngton, 466U.S.668 (1984), and reasonably interpreted the facts
to conclude that Petitioner was not entitled to relief. Accordingly, the Magistrate
Judge determined that the state habeas corpus s determination is likewise entitled to
, .1

deference
under § 2254(d).
.^
;

3
A0 72A
(Rev. 8/82)

tL

ease T18-CV-04334-ODE Document 14 ' Filed 08/30/19 Page 5 of 6

i'
.•7

j

-

•

**

As the issue discussed by the Georgia Supreme Court (and apparently raised by

r

Petitioner) turned solely on a question of state law, this Court agrees with the
Magistrate Judge that § 2254 provides no basis for relief. Moreover, to the degree that
-•

u

Petitioner now raises a due process violation, it appears that such a claim would be

::

procedurally barred as unexhausted because Petitioner failed to raise the claim in state

;

1,
court.1 See 28 U.S.C. § 2254(b)(lYA) (requiring exhaustion of state court, remedies).

h

To the degree that Petitioner did raise his due process claim in his appeal and the
i

Georgia Supreme Court ignored the issue, this Court nonetheless concludes that
!

Petitioner cannot demonstrate that he is entitled to relief. As was noted by the Georgia
Supreme Court, Petitioner’s felony
murder conviction was predicated on his
;

I

i
i

possession of a firearm as a convicted felon in conjunction with the murder, which is
,-v

clearly sufficient to support his felony murder conviction, and Petitioner thus has no

I

viable due process claim.
Petitioner further objects to the Magistrate Judge’s determination as to the

i.

i

remainder of his claims that this Court must defer under § 2254(d) to the Georgia
Supreme Court’s and the state habeas corpus court’s conclusions that he is not entitled

r
!.

to relief. However, Petitioner’s arguments are entirely conclusory in that he asserts
i

that the state courts’ conclusions were contrary to Supreme Court law and based on
;

an unreasonable determination of the facts, but he fails to (1) explain how he contends
r

5
AO 72A
(Rev. 8/82)

- -

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 1 of 16

WS,H
--- ---- T—M II

■t

IN THE UNITED STATES ^p^CSBOURkvi
FOR THE NORTHERNS)!STRICT OF GEOR(3m
ATLANT&gSlC»tATE PRISON
:

EDWARD MATTHEW AMOS,
Petitioner,

PRISONER HABEAS CORPUS
28U.S.C. § 2254

V.

TOMMY BOWEN,
Respondent.

.

CIVIL ACTION NO.
1:18-CV-4334-ODE-LTW

FINAL REPORT AND RECOMMENDATION

Petitioner Edward Matthew Amos, presently confined in Central State Prison
in Macon, Georgia, has filed this 28 U.S.C. § 2254 petition to challenge his May
2011 convictions in the Superior Court of Cobb County. This matter is currently
before the Court on the petition (Doc. 1), the answer-response (DocCT), and
petitioner’s supporting brief (Doc. 9). For the reasons that follow, the undersigned
RECOMMENDS that the petition be DENIED.
I.

Procedural History
A Cobb County grand jury indicted petitioner for “one count of malice

murder, one count of felony murder predicated on aggravated assault, one count of
felony murder predicated on unlawful possession of a firearm by a convicted felon,
one count of aggravated assault, and one count of unlawful possession of a firearm
by a convicted felon.” Amos v. State, 778 S.E.2d 203, n.l (Ga. 2015). Petitioner

A'PP^/X

C

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 2 of 16

pled guilty to the firearm charge and proceeded to trial on the remaining counts. Id.
A jury convicted petitioner on all counts. Id. “The trial court sentenced [petitioner]
to life imprisonment for felony murder predicated on the unlawful possession of a
firearm and merged all the remaining counts.”

Id.

Attorney Jimmy Berry

represented petitioner at trial. (Doc. 8-7 at 38.)
Represented by new counsel, Mitch Durham, petitioner appealed, arguing
that the trial court should have sentenced him for voluntary manslaughter instead
of felony murder. Br. of Appellant, Amos, 778 S.E.2d 203 (S15A1143), 2015 WL
2439219 (May 15, 2015). The Georgia Supreme Court summarized the evidence
presented at trial, which it viewed “in the light most favorable to the verdict” and
found sufficient to support petitioner’s conviction, as follows:
... [Petitioner] drove his van on the morning of August 7, 2007 to the
auto repair shop at which [Robin] Crankshaw worked, where
[petitioner] fatally shot Crankshaw in the chest. A responding officer
found Crankshaw’s body lying face down on top of a baseball bat, and
two .32 caliber shell casings were found about 35 feet away.
Crankshaw’s employer saw [petitioner] drive off in an older-model
white van and remembered the first three letters on the van’s license
plate.
After a couple of years passed, investigators were able to locate and
interview [petitioner], with whom they had connected the van.
Although [petitioner] initially denied any involvement in the killing
of Crankshaw, he eventually admitted that he shot Crankshaw, but
[petitioner] claimed that he did so in self-defense. According to
[petitioner], Crankshaw’s vehicle had bumped into his van, but
2

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 3 of 16

Crankshaw drove away while [petitioner] was inspecting his van for
damage. [Petitioner] said that he pursued Crankshaw to obtain
insurance information, and after they arrived at Crankshaw’s
workplace, [petitioner] claimed, Crankshaw came at him with a
baseball bat and attacked him. [Petitioner] acknowledged that he then
retrieved a .32 caliber firearm from his van and fired two shots.
[Petitioner] explained that he fled because, as a convicted felon, he
feared explaining the situation to police officers.
Amos, 778 S.E.2d at 204. On October 5,2015, the Georgia Supreme Court affirmed
the trial court’s judgment, concluding that petitioner was properly sentenced for
felony murder, not voluntary manslaughter, “[b]ecause the felony murder in this
case was predicated on unlawful possession of a firearm by a convicted felon—a
crime that is (on the facts of this case) independent of, and not integral to, the killing
of Crankshaw.” Id. at 205.
On October 13, 2016, petitioner filed a pro se habeas corpus petition in the
Superior Court of Bibb County, arguing that appellate counsel should have alleged
that trial counsel was ineffective for (1) failing to request a jury charge about a
felon being justified in possessing a firearm when he fears for his life and
(2) advising and allowing petitioner to plead guilty to the firearm charge before
standing trial on the felony murder charge predicated on the firearm charge. (Doc.
8-1 at 1, 6-10.) Following a December 13, 2016, evidentiary hearing at which
appellate counsel testified (Doc. 8-6 at 1-34), the state habeas court entered a
3

'

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 4 of 16

written order denying the petition (Doc. 8-2). On August 2, 2018, the Georgia
Supreme Court denied petitioner a certificate of probable cause to appeal that ruling.
(Doc. 8-4.)
Petitioner timely filed this § 2254 petition, arguing that: (1) the trial court
erred by sentencing him to felony murder instead of voluntary manslaughter;
(2) there was insufficient evidence to support his conviction; and (3)-(4) Durham ,
should have alleged that Berry was ineffective for failing to request a jury charge
about a felon being justified in possessing a firearm when he fears for his life
and for advising and allowing petitioner to plead guilty to the firearm charge before
standing trial on the felony murder charge. (Doc. 1 at 6-14; Doc. 9.) Respondent
argues that ground one does not state a federal claim for relief and that the state
courts’ rejection of his remaining grounds warrants deference. (Doc. 7-1 at 6-14.)
II.

Discussion
A.

28 U.S.C. $ 2254 Standards

Under 28 U.S.C. § 2254, a federal court may issue a writ of habeas corpus
on behalf of a person being held in custody pursuant to a judgment of a state court
' if that person is held in violation of his rights under federal law. 28 U.S.C.
§ 2254(a). In general, a state prisoner who seeks federal habeas corpus relief may
not obtain that relief unless he first exhausts his available remedies in state court or
4

A

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 5 of 16

•t,.

shows that a state remedial process is unavailable or ineffective. Id. § 2254(b)(1).
A federal court may not grant habeas corpus relief for claims previously
adjudicated on the merits by a state court unless the state court adjudication resulted
in a decision that (1) “was contrary to, or involved an unreasonable application of,
clearly established Federal law, as detennined by the Supreme Court of the United
States”; or (2) “was based on an unreasonable determination of the facts in light of
the evidence presented in the State court proceeding.” Id. § 2254(d). “This is a
difficult to meet and highly deferential standard for evaluating state-court rulings,
which demands that state-court decisions be given the benefit of the doubt.” Cullen
v. Pinholster, 563 U.S. 170, 181 (2011) (citations and quotation marks omitted).
In applying § 2254(d), a federal court first determines the “clearly
established federal law” based on “the holdings, as opposed to the dicta, of [the
Supreme Court’s] decisions as of the time of the relevant state-court decision.”
Williams v. Taylor, 529 U.S. 362, 412 (2000). The court then determines whether
the state court decision is “contrary to” that clearly established federal law, i.e.,
whether the state court “applies a rule that contradicts the governing law set forth”
in Supreme Court cases, or “confronts a set of facts that are materially
indistinguishable” from a Supreme Court decision “and nevertheless arrives at a
[different] result.” Id. at 405-06.
5

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 6 of 16
k
If the federal court determines that the state court decision is not contrary to
clearly established federal law, it then determines whether the decision is an
“unreasonable application” of that law, i.e., whether “the state court identifies the
correct governing legal principle” from the Supreme Court’s decisions “but
unreasonably applies that principle to the facts of the prisoner’s case.” Id. at 413.
A federal court may not grant habeas relief “simply because that court concludes
in its independent judgment that the relevant state-court decision applied clearly
established federal law erroneously or incorrectly. Rather, that application must
also be [objectively] unreasonable.” Id. at 409, 411; see Harrington v. Richter, 562
U.S. 86, 101 (2011) (“For purposes of § 2254(d)(1), an unreasonable application
of federal law is different from an incorrect application of federal law.” (quotations
omitted)). In short, when a state court applies clearly established federal law to a
claim, federal habeas relief is not available unless the petitioner shows that the state
court’s ruling “was so lacking in justification that there was an error well
understood and comprehended in existing law beyond any possibility for
fairminded disagreement.” Harrington, 562 U.S. at 103.
Additionally, the state court’s determinations of factual issues are presumed
correct. 28 U.S.C. § 2254(e)(1). A petitioner can overcome this presumption only

6

- A

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 7 of 16

i

by presenting “clear and convincing evidence” that the state court’s findings of fact
were erroneous. Id.
B.

Ground One: Felony Murder Sentence

Petitioner’s first claim that the trial court should have sentenced him to
voluntary manslaughter instead of felony murder does not allege a violation of
federal law, but rests on the alleged violation of state law.1i “The habeas statute
unambiguously provides that a federal court may issue the writ to a state prisoner
‘only on the ground that he is in custody in violation of the Constitution or laws or
treaties of the United States.’” Wilson v. Corcoran, 562 U.S. 1, 5 (2010) (per
curiam) (quoting 28 U.S.C. § 2254(a)). “[F]ederal habeas corpus relief does not lie
for errors of state law.” Id. (citation omitted). Therefore, ground one fails to state
a claim for relief.
C.

Ground Two: Sufficiency of the Evidence

When reviewing a challenge to the sufficiency of the evidence, a court must
determine “whether, after viewing the evidence in the light most favorable to the

i

In support of this claim, petitioner cites Blakely v. Washington, 542 U.S.
296, 303-04 (2004), which held that a judge may not impose an enhanced sentence
based on facts not found by the jury. (Doc. 9 at 1-2.) However, Blakely does not
apply to petitioner’s ground one because the jury found him guilty of both felony
murder and voluntary manslaughter.
7

-

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 8 of 16

/*•

«

prosecution, any rational trier of fact could have found the essenti al elements of the
crime beyond a reasonable doubt.” Jackson v. Virginia, 443 U.S. 307, 319 (1979)
(emphasis in original). “When the record reflects facts that support conflicting
inferences, there is a presumption that the jury resolved those conflicts in favor of
the prosecution and against the defendant.” Johnson v. Alabama, 256 F.3d 1156,
1172 (11th Cir. 2001). “In other words, federal courts must defer to the judgment
of the jury in assigning credibility to the witnesses and in weighing the evidence.”
Id.
Under Georgia law, a person commits the offense of felony murder when,
during “the commission of a felony, he or she causes the death of another human
being irrespective of malice.” O.C.G.A. § 16-5-1 (c). Petitioner admitted that he
fatally shot Crankshaw with a firearm he, as a convicted felon, unlawfully
possessed, but “claimed that he did so in self defense.” Amos, 778 S.E.2d at 204.
The Georgia Supreme Court, citing Jackson, reasonably found this evidence
sufficient to support petitioner’s felony murder conviction and correctly noted that
the jury was free to reject petitioner’s claim that he acted in self defense. The state
court’s decision is therefore entitled to deference pursuant to § 2254(d).
Harrington, 562 U.S. at 101; Williams, 529 U.S. at 404-05, 412-13.

8

See

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 9 of 16

D.

Grounds Three and Four: Assistance of Appellate Counsel

In this Court’s review of the state courts’ denial of petitioner’s ineffective
assistance of counsel claims, “the relevant clearly established law [for purposes of
28 U.S.C. § 2254(d)] derives from Strickland, v. Washington, 466 U.S. 668 (1984),
which provides the standard for inadequate assistance of counsel under the Sixth
Amendment.” Premo v. Moore, 562 U.S. 115, 118 (2011); see also Eagle v.
Linahan, 279 F.3d 926, 938 (11th Cir. 2001) (applying Strickland to allegations of
ineffective assistance of appellate counsel). “The pivotal question” before this
Court “is whether the state court’s application of the Strickland standard was
unreasonable.” Harrington, 562 U.S. at 101.

“This is different from asking

whether defense counsel’s performance fell below Strickland’s standard.” Id.
The Strickland analysis is two-pronged, but a court need not address both
prongs “if the defendant makes an insufficient showing on one.” Strickland, 466
U.S. at 697. First, a convicted defendant asserting a claim of ineffective assistance
of counsel must show that “in light of all the circumstances, the identified acts or
omissions [of counsel] were outside the wide range of professionally competent
assistance.” Id. at 690. A court analyzing Strickland’s first prong must be “highly
deferential” and must “indulge a strong presumption that counsel’s conduct falls
within the wide range of reasonable professional assistance.” Id. at 689; Atkins v.
9

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 10 of 16

Singletary, 965 F.2d 952, 958 (11th Cir. 1992) (“We also should always presume
strongly that counsel’s performance was reasonable and adequate.”); see also
Harrington, 562 U.S. at 105 (“‘Surmounting Strickland's high bar is never an easy
task.’” (quoting Padilla v. Kentucky, 559 U.S. 356, 371 (2010))).
In order to meet the second prong of Strickland, a petitioner must
demonstrate that counsel’s unreasonable acts or omissions prejudiced him. “An
error by counsel, even if professionally unreasonable, does not warrant setting aside
the judgment of a criminal proceeding if the error had no effect on the judgment.”
Strickland, 466 U.S. at 691. In order to demonstrate prejudice, a petitioner “must
show that there is a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been different.” Id. at 694. “A
reasonable probability is a probability sufficient to undermine confidence in the
outcome.” Id.; see also Eagle, 279 F.3d at 943 (“To determine whether the
[unreasonable] failure to raise a claim on appeal resulted in prejudice, we review
the merits of the omitted claim.”).
When this deferential Strickland standard is “combined with the extra layer
of deference that § 2254 provides, the result is double deference and the question
becomes whether ‘there is any reasonable argument that counsel satisfied
Strickland’s deferential standard.”’ Johnson v. Sec’y, DOC, 643 F.3d 907, 910-11
10

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 11 of 16

(11th Cir. 2011) (quoting Harrington, 562 U.S. at 105). “Double deference is
doubly difficult for a petitioner to overcome, and it will be a rare case in which an
ineffective assistance of counsel claim that was denied on the merits in state court
is found to merit relief in a federal habeas proceeding.” Id. at 911.
Petitioner raised grounds three and four, asserting that Durham should have
alleged that Berry was ineffective for failing to request a jury charge about a felon
being justified in possessing a firearm when he fears for his life and for advising
and allowing petitioner to plead guilty to the firearm charge before standing trial
on the felony murder charge, in his state habeas petition. (Doc. 8-1 at 6-10.) The
state habeas court made the following pertinent findings of fact, which are
supported by the record as indicated:
. . . [Mr. Durham] learned that trial counsel strategically against the State’s wishes - had petitioner plead guilty to [the firearm
charge] to keep the State from being able to admit evidence of a prior
gun charge of petitioner’s from Tennessee. [(Doc. 8-6 at 26)]. Mr.
Durham assessed that trial counsel believed that this was in
[petitioner’s best interest, a decision which Mr. Durham believed to
be “well founded.” [{Id.)]. Hence, Mr. Durham [elected not to
challenge trial counsel’s effectiveness on this basis. {Id.)].
(Doc. 8-2 at 4.) The state court further noted Durham’s testimony that, due to an
intervening change in the law, he abandoned on appeal an argument that Berry
should have requested a more tailored justification charge. {Id.; Doc. 8-6 at 22.)
11

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 12 of 16

Before Durham filed petitioner’s appellate brief, the Georgia Supreme Court held
that “a defendant cannot assert self-defense if he used deadly force while
‘committing ... a felony,”’ even if that felony is possession of a firearm by a
convicted felon.

Woodard v. State, 771 S.E.2d 803, 810-14 (Ga. 2015).

Accordingly, Durham chose not to argue that Berry was ineffective based on the
justification defense, explained that decision to petitioner, and ultimately “raised
on appeal the lone issue which he believed had merit.” (Doc. 8-2 at 5-6; Doc. 8-6
at 10-12, 21-22.) The state habeas court then correctly set forth the Strickland
standard and found that petitioner had “not carried his burden under Strickland
reasoning that:
Mr. Durham intentionally abandoned the argument on appeal
that trial counsel was ineffective for not seeking a more tailored
instruction on justification because such instruction was no longer
supported by the governing law ... a point which he explained to
[petitioner. Petitioner has demonstrated neither that Mr. Durham
performed deficiently by not raising this issue, nor a reasonable
probability of a different result had counsel raised the issue. ...

.

Mr. Durham also intentionally declined to assert that trial
counsel was ineffective for “allowing” [petitioner to plead guilty to
his possession charge because his discussion with trial counsel and the
prosecutor revealed that counsel did this to keep out of evidence - and
away from the jury - evidence of a prior gun charge of [pjetitioner’s.
Petitioner has not demonstrated that Mr. Durham’s intentional
decision was unreasonable. .. . Additionally, in light of the apparent
Tennessee weapons charge, and [petitioner also being found guilty of
his separate felony murder count and its predicate felony of
12

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 13 of 16

aggravated assault, [petitioner also has not demonstrated a reasonable
probability of a different result had this issue been raised. .. .
(Doc. 8-2 at 6-8.)
Petitioner has not met his burden to show that the state habeas court’s
decision was based on an unreasonable determination of the facts or that its
rejection of petitioner’s ineffective assistance of counsel claims was contrary to, or
involved an unreasonable application of, Strickland. Argo v. Sec ’y, Dep 't of Corr.,
465 F. App’x 871, 874-75 (11th Cir. 2012) (per curiam) (“We presume the state
court’s determination of the facts is correct, and the petitioner bears the burden of
rebutting this presumption by clear and convincing evidence.”) (citing 28 U.S.C.
§ 2254(e)(1)); Pair v. Cummins, 373 F. App’x 979, 981 (11th Cir. 2010) (per
curiam) (“[T]he habeas petitioner bears the burden ‘to show that the state court
applied [the applicable clearly established federal law] to the facts of the case in an
objectively unreasonable manner.’”). Durham provided reasonable grounds for his
decision not to raise Berry’s alleged ineffectiveness on appeal, and “winnowing out
weaker arguments on appeal and focusing on those more likely to prevail ... is the
hallmark of effective appellate advocacy.” Smith v. Murray, All U.S. 527, 536
(1986) (internal quotation marks and citation omitted); see also Johnson v. Nagle,
58 F. Supp. 2d 1303, 1361 (N.D. Ala. 1999) (concluding that appellate counsel’s
13

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 14 of 16

testimony that “he discussed the issues in the case with trial counsel, carefully
studied the trial record, researched the issues, and elected to argue on appeal those
that in his judgment offered the greatest opportunities for success” demonstrated
that counsel “engaged in the kind of considered decision making that the courts
have said is virtually unassailable”). Moreover, petitioner has not shown that the
outcome of his appeal would have been different had these issues been raised. See
Smith v. Robbins, 528 U.S. 259, 285-86 (2000) (In order to meet the prejudice
prong of Strickland, petitioner “must show a reasonable probability that, but for his
counsel’s [unprofessional errors], he would have prevailed on his appeal.”) (citing
Strickland, 466 U.S. at 694).

Therefore, the state habeas court’s rejection of

grounds three and four is entitled to

deference pursuant to § 2254(d).

See

Harrington, 562 U.S. at 101; Williams, 529 U.S. at 404-05, 412-13; Johnson, 643
F.3d at 911.
III.

Certificate of Appealability
Under Rule 22(b)(1) of the Federal Rules of Appellate Procedure, “the

applicant cannot take an appeal unless a circuit justice or a circuit or district judge
issues a certificate of appealability [“COA”] under 28 U.S.C. § 2253(c).” Rule 11
of the Rules Governing Section 2254 Cases “[t]he district court must issue or deny
a certificate of appealability when it enters a final order adverse to the applicant.”
14

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 15 of 16

A COA may issue “only if the applicant has made a substantial showing of
the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). A substantial showing
of the denial of a constitutional right “includes showing that reasonable jurists
could debate whether (or, for that matter, agree that) the petition should have been
resolved in a different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Slack v. McDaniel, 529 U.S. 473, 483-84
(2000) (citations and quotation marks omitted). Where a habeas petition is denied
on procedural grounds without reaching the prisoner’s underlying constitutional
claim, “a certificate of appealability should issue only when the prisoner shows
both that jurists of reason would find it debatable whether th& petition states a valid
claim of the denial of a constitutional right and that jurists of reason would find it
debatable whether the district court was correct in its procedural ruling.” Jimenez
v. Quarterman, 555 U.S. 113, 118 n.3 (2009) (internal quotations marks omitted)
(citing Slack, 529 U.S. at 484).
Based on the foregoing discussion of petitioner’s grounds for relief, the
resolution of the issues presented is not debatable by jurists of reason, and a COA
is not warranted here.

15

Case l:18-cv-04334-ODE Document 10 Filed 06/19/19 Page 16 of 16
,r-

#

IV.

Conclusion
For the foregoing reasons, the undersigned RECOMMENDS that the

petition and a COA be DENIED.
The Clerk is DIRECTED to terminate the referral to the Magistrate Judge.
SO RECOMMENDED, this l l\ day of
. 2019.

LINDA T. WALKER
UNITED STATES MAGISTRATE JUDGE

16

*

In the Supreme Court of Georgia

y

Decided: October 5, 2015

S15A1143. AMOS v. THE STATE.

Blackwell, Justice.
Eddie Matthew Amos was tried by a Cobb County jury, which found him
guilty ofvoluntary manslaughter and felony murder, both in connection with the
killing of Robin Crankshaw. The trial court merged the voluntary manslaughter
into the felony murder, and it sentenced Amos for the murder. Amos appeals,
contending only that the trial court should have sentenced him instead for
voluntary manslaughter. We find no merit in this claim of error, and we affirm
the judgment below.1

The crimes were committed on August 7, .2007. Amos was indicted on November
19, 2009 and charged with one count-oT malice murder, one count of felony murder
predicated on ■aggmvuted'^ssauit_one count of felony murder~predieated on unlawful
Ppsses^ionofaitfearaft-hymfiQnyicted felon, one count of aggravatedassault, and one count
Pf yhlawf^pos^s^JmixdlailrearmHyalconvicted felon ..On November 19,20097AmospIe(I
guilfyjo unlawful possession of a firearm by a convicted felon. His trial on the remaining
charges commenced on May 2,20117and the jury returned rts"verdict three days later, finding
him guilty of both counts of felony murder and one count of aggravated assault, ^sjojhe
connColmalice murder, theJury found Amos guilty of the lesser offense of voluntary
manslaughter, the triaTcouxt-sentene^Wmos toTifelmprisonmenFfor felony murder
predicated on the unlawful possession of a firearm^and merged all the remaining counts. See

MUXPix

4.

1. Viewed in the light most favorable to the verdict, the evidence shows
that Amos drove his van on the morning of August 7, 2007 to the auto repair
shop at which Crankshaw worked, where Amos fatally shot Crankshaw in the
chest. A responding officer found Crankshaw’s body lying face down on top of
a baseball bat, and two .32 caliber shell casings were found about 35 feet away.
Crankshaw’s employer saw Amos drive off in an older-model white van and
remembered the first three letters on the van’s license plate.
After a couple of years passed, investigators were able to locate and
interview Amos, with whom they had connected the van. Although Amos
initially denied any involvement in the killing of Crankshaw, he eventually
admitted that he shot Crankshaw, but Amos claimed that he did so m
self-defense. According to Amos, Crankshaw’s vehicle had bumped into his
van, but Crankshaw drove away while Amos was inspecting his van for damage.

Malcolm v. State. 263 Ga. 369, 371-374 (4), (5) (434 SE2d 479) (1993); see also Smith v.
State, 272 Ga. 874, 880 (6) (c) (536 SE2d 514) (2000) (“[bjecause there is only one victim,
to convict and sentence Smith for both voluntary manslaughter and felony murder would
improperly subject Smith to multiple convictions and punishments for one crime”).'Amos
timely filed a motion for a new trial on May 17, 2011, and he amended it on December 6,
2013. The trial court denied his motion on March 31, 2014, and Amos timely filed a notice
of direct appeal on April 28, 2014. The case was docketed in this Court for the April 2015
term and submitted for decision on the briefs.
2

Amos said that he pursued Crankshaw to obtain insurance information, and after
they arrived at Crankshaw’s workplace, Amos claimed, Crankshaw came at him
with a baseball bat and attacked him. Amos acknowledged that he then retrieved
a .32 caliber firearm from his van and fired two shots. Amos explained that he
fled because, as a convicted felon, he feared explaining the situation to police
officers. The evidence adduced at trial was legally sufficient to authorize a
rational trier of fact to find beyond a reasonable doubt that Amos was guilty of
murder in the commission of a felony, the unlawful possession of a firearm by
a convicted felon. Jackson v. Virginia, 443 U. S. 307, 319 (III) (B) (99 SCt
2781, 61 LE2d 560) (1979); see also Shawv, State, 292 Ga. 871, 872 (1) (742
SE2d 707) (2013) (“jury is free to reject a defendant’s claim that he acted in
self-defense”) (citation omitted).
2. Because the jury found Amos guilty of both felony murder and
voluntary manslaughter, Amos contends, the trial court should have merged the
felony murder into the voluntary manslaughter and sentenced him only for
voluntary manslaughter. We disagree. In Edge v. State, 261 Ga. 865, 866-867
(2) (414 SE2d 463) (1992), this Court adopted what has become known as the
“modified merger rule,” concluding that, when a defendant is found guilty of
3

i

both voluntary manslaughter and felony murder predicated on aggravated
assault, the trial court should sentence the defendant only for voluntary
manslaughter. Otherwise, we reasoned, almost every voluntary manslaughter
would amount to a felony murder (predicated on a felonious assault), and such
a rule “would eliminate voluntary manslaughter as a separate form of homicide.”
Id. at 866 (2). Since Edge, however, we have consistently held that this
“modified merger rule” is limited to cases in which the felony murder is
predicated on a felony that itself is integral to the homicide, such as aggravated
assault. See Kipp v. State, 296 Ga. 250,252 (765 SE2d 924) (2014); Wallace v.
State, 294 Ga. 257,258-259 (2) (754 SE2d 5) (2013) (Edge rule does not apply
where felony murder was predicated on unlawful possession of a firearm by a
convicted felon); Lawson v. State, 280 Ga. 881, 883 (3) (635 SE2d 134) (2006)
(same); Sims v. State, 265 Ga. 35,36 (3) (453 SE2d 33) (1995) (same); see also
Grimes v. State, 293 Ga. 559, 561 (2) (748 SE2d 441) (2013); Smith v. State,
272 Ga. 874,879-880 (5) (a) (536 SE2d 514) (2000). Because the felony murder
in this case was predicated on unlawful possession of a firearm by a convicted
felon — a crime that is (on the facts of this case) independent of, and not

JX

4

0

1

integral to, the killing of Crankshaw2 — the Edge rule does not apply, and the
trial court properly sentenced Amos for felony murder, not voluntary
manslaughter.3
Judgment affirmed. All the Justices concur.

2 The evidence in this case shows that Amos pursued Crankshaw to the auto repair
shop while in possession of a .32 caliber firearm in his van. This is not a case in which the
defendant first came into unlawful possession of a firearm by virtue of a passion to which
he was provoked. Cf. Wallace, 294 Ga. at 262-263 (Melton, J., concurring).
3 Although Amos urges us to overrule the precedents that have limited Edge and to
extend the “modified merger rule” to the circumstances presented here, we see no compelling
reason to do so. We continue to adhere to those precedents, and under those precedents, the
trial court in this case did not err.
5

